CERTIFICATE
OF SERVICE
Brian Burke, petitioner
v.
New York City Transit Authority, Kristen Nolan, esq., Leonard
Akselrod, NYP Holdings, DBA New York Post, Kathianne Boniello,
Opponent(s) Respondent(s)
I, Brian Burke certify that three copies each of this petition for a writ of
certiorari were sent today by USPS to Counsel of record for NYCT and
Kristen Nolan and Leonard Akselrod to NYCT General Counsel, David
Farber, esq., NYCT Department of Law 130 Livingston Street, Brooklyn,
NY 11201 and to NYP Holdings and Kathianne Boniello via Counsel of
Record Robert Balin, esq., Davis Wright & Tremaine 1251 Avenue of the
Americas 21st floor , New York, NY 10020-1104
I declare under penalty of perjury in this declaration in compliance with
28 U. S. C. ยง 174 that the foregoing is true and correct.
Executed on Friday, October 25, 2019

Brian Burke, pro se
145 East 23rd Street #4R
New York, NY 10010
briantburke@gmail.com
646-434-8513

